BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Bridget Alex, Individually and on Behalf
of the Estate of Brandon Alex; JashawnAle x; Michaelle
Cohen; Estate of Brandon Alex; Detreasure Coker v.
T-Mobile USA, Incorporate d; T-Mobile US
Incorporate d, formerly known as Metropcs
Communica tions Incorporated ; Metropcs Midway Rd;
Deutsche Telekom North America Incorporated ;
T-Systems North America Incorporated , were sent via
Two Day Service to the U.S. Supreme Court, and 3
copies were sent via Two Day Service and e-mail to the
following parties listed below, this 26th day of August,
2020:
Stephanie D. Clouston
Matthew A. Durfee
Newman Antoin Nahas
Alston & Bird, L.L.P.
Suite 2300
2200 Ross Avenue
Dallas, TX 75201
(214) 922-3403
stephanie.cl ouston@alst on.com
matt.durfee@ alston.com
newman.nah as@alston.c om
Counsel for Respondent s

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
· www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

· Cincinnati, Ohio 45249

Washington, DC 20005

Aubrey "Nick" Pittman
Counsel of Record
The Pittman Law Firm, P.C.
100 Crescent Court, Suite 700
Dallas, Texas 75201-2112
(214) 459-3454
pittman@thepittmanlawfirm.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 26, 2020.

D
Donna J. Wolf
Becker Gallagh er Legal Publish in g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

0.::::~::c
D
Notary Public

[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

